No. 19-840
IN THE

Supreme Court of the United States
____________________

THE STATES OF CALIFORNIA, COLORADO, CONNECTICUT, DELAWARE, HAWAII, ILLINOIS,
IOWA, MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW YORK,
NORTH CAROLINA, OREGON, RHODE ISLAND, VERMONT, VIRGINIA, AND WASHINGTON,
ANDY BESHEAR, THE GOVERNOR OF KENTUCKY, AND THE DISTRICT OF COLUMBIA,
Petitioners,
V.

THE STATE OF TEXAS, et al.,
Respondents.
____________________

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________________

REPLY IN SUPPORT OF MOTION TO EXPEDITE CONSIDERATION OF
THE PETITION FOR A WRIT OF CERTIORARI AND TO EXPEDITE
CONSIDERATION OF THE MOTION
____________________

Xavier Becerra
Attorney General of California
Kathleen Boergers
Supervising Deputy Attorney General
Nimrod P. Elias
Neli N. Palma
Deputy Attorneys General

January 13, 2020

Michael J. Mongan
Solicitor General
Samuel P. Siegel*
Helen H. Hong
Deputy Solicitors General
Amari L. Hammonds
Associate Deputy Solicitor General
*Counsel of record
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov
Counsel for the State of California

(Additional counsel on signature pages)

1
As explained in petitioners’ motion (at 4-7), expedited consideration of the
petition for a writ of certiorari is warranted in this case.

The petition raises

questions that are “undoubtedly a matter of the utmost national importance” (Texas
Resp. 3); those questions are purely legal and fully ripe for review by this Court;
and prolonged litigation in the lower courts would exacerbate uncertainty about the
future of hundreds of statutory provisions that regulate nearly a fifth of the
Nation’s economy. Petitioners respectfully request that the Court expedite its
consideration of the motion, expedite consideration of the petition, and, if it grants
the petition, set a schedule for merits briefing and argument that would allow it to
decide the case this Term.
1.

Respondents largely ignore the central consideration warranting

expedited review.

Although they agree that the case raises issues of profound

importance, see Texas Resp. 3; Federal Resp. 3, they oppose the motion to expedite
on the ground that “no aspect of any operative lower-court ruling in this case . . .
creates any exigency or otherwise necessitates accelerated consideration,” Federal
Resp. 8; see Texas Resp. 4.

As petitioners have explained, however, the lower

courts’ actions have created doubt about the future of the entire Affordable Care Act,
which in turn threatens adverse consequences for governments, individuals, doctors,
hospitals, insurers, and other businesses. See Mot. 4-7; Pet. 15-19. Delaying or
deferring review would “prolong this litigation and the concomitant uncertainty
over the future of the healthcare sector.”

Pet. App. 74a (King, J., dissenting).

Respondents do not meaningfully dispute the practical threat that continued

2
uncertainty about the future of the ACA poses to our Nation and its healthcare
system. Indeed, it was the evident need to “reduce uncertainty in the healthcare
sector, and other areas affected by the Affordable Care Act,” that impelled the
federal respondents to move to expedite oral argument in the court below. C.A. Dkt.
514906506 at 3 (Apr. 8, 2019).
The federal respondents now argue that the circumstances are “materially
different” from when they supported expedition, because “the Fifth Circuit’s
decision has made clear that its ruling has no imminent consequences.” Federal
Resp. 13. But the district court, too, had made clear that its judgment had no
imminent consequences when “it stayed that judgment pending appeal.” Id. at 6.
Then, as now, the need for expedited review arose not from a “currently operative
remedy,” Texas Resp. 4, but from the “uncertainty in the healthcare sector” arising
from the court’s ruling, C.A. Dkt. 514906506 at 3. And contrary to the federal
respondents’ suggestion (at 13), the panel majority’s decision has not quelled
concerns about the ACA’s future. If anything, it has had the opposite effect: a
federal court of appeals has now held that the plaintiffs have standing and that the
minimum coverage provision is unconstitutional, and suggested that it “may still be
that none of the ACA is severable from the individual mandate.” Pet. App. 69a.
Nor are the state respondents correct that “the long-term viability of the Act
is fundamentally uncertain regardless of anything to do with this case.” Texas Resp.
4-5.

The Affordable Care Act has now been in place for a decade.

It has

transformed how healthcare is delivered and implemented patient protections that

3
benefit millions of Americans. Over the course of six Congresses, every effort to
repeal it has failed. It is this litigation that is creating doubts about the future of
the Act, and there is every reason for this Court to review the case expeditiously.
2.

Respondents argue that the Court should delay review because of the

“interlocutory” posture of this case. Federal Resp. 2, 3, 11; Texas Resp. 1, 7. That
argument is misplaced. Respondents are free to argue in their briefs in opposition
that the Court should deny the petition in light of the Fifth Circuit’s remand order.
But that is not a consideration weighing against expedited consideration of the
petition—which would put the Court in a position to consider respondents’
argument about the appropriateness of plenary review and, if it disagrees with
respondents, to decide the case this Term.
In any event, the argument is incorrect. As petitioners have explained (Pet.
17-19, 23-26), the fact that the panel majority declined to answer the severability
question and remanded for protracted proceedings in the district court is not a
reason for this Court to delay or defer review. Severability presents a pure question
of law that is ripe for immediate review by this Court; and it requires no extended
analysis here because Congress plainly intended that the minimum coverage
provision would be severable from the rest of the ACA. See Pet. 23-26. The remand
proceedings directed by the panel majority are thus unnecessary, and would prolong
and exacerbate the harmful uncertainty created by this litigation. 1

The state respondents’ argument that “[t]he ‘interlocutory posture’ of the Fifth
Circuit’s decision counsels against granting review here,” Texas Resp. 7, is in

1

4
The federal respondents note that “this Court ordinarily does not consider in
the first instance questions that the court below has not decided.” Federal Resp. 11.
But the federal government is no stranger to the concept that the importance of a
question may warrant review by this Court before the court of appeals has finally
decided that question. Here, all agree that the issues raised in this litigation are
profoundly important; the court of appeals has already decided two of the three
questions presented; and it had every opportunity to decide the third. Nor would a
decision on severability from this Court be one of “first view.” Federal Resp. 11; see
also Texas Resp. 1. The district court issued two orders explaining its view that the
minimum coverage provision cannot be severed from any other provision of the ACA.
See Pet. App. 151a-159a, 204a-231a. Both the panel majority and the dissenting
judge below addressed severability at length. See id. at 52a-70a, 98a-112a. And
there is no need for the Court to wait for the district court’s “granular analysis” of
“the severability of statutory provisions spanning 900 pages” before granting review.
Federal Resp. 11.

The severability inquiry here is “quite simple”: “Congress

removed the coverage requirement’s only enforcement mechanism but left the rest
of the Affordable Care Act in place”; it “is difficult to imagine a plainer indication

tension with their litigating position below. In the district court, they described the
three questions presented in this petition as “purely legal and controlling questions
of law that are central to this suit and highly disputed among the parties.” D.Ct.
Dkt. 217 at 4. And they “agree[d] with the Intervenor-Defendants that an
‘interlocutory appeal will help bring this lawsuit to a speedier conclusion.’” Id. at 5.

5
that Congress considered the coverage requirement entirely dispensable and, hence,
severable.” Pet. App. 73a, 98a (King, J., dissenting). 2
3.

Contrary to the arguments of the state respondents (at 5-6) and the

individual respondents (at 4-5), petitioners did not delay in filing the petition or this
motion, and respondents would not be prejudiced by the schedule petitioners have
proposed. The petition and appendix were filed on January 3, just 16 days after the
Fifth Circuit issued its 98-page opinion.

The motion to expedite was filed

concurrently. Under the principal briefing schedule proposed by petitioners, briefs
in opposition would be due 31 days after the petitions were filed—the same period
prescribed by the Court’s rules. Mot. 7; see Sup. Ct. R. 15.3, 30.1. That is ample
time for respondents’ counsel to prepare briefs reflecting “the thorough and effective
presentation of the issues that this Court deserves.” Individual Resp. 3.
4.

The possibility that certain respondents might file conditional cross-

petitions does not provide any reason for denying the motion to expedite. See Texas
Resp. 2, 7; Individual Resp. 6. Although the individual respondents assert that a
cross-petition is “likely,” Individual Resp. 2, no respondent has committed to filing a
cross-petition or indicated what additional questions might be raised in a crosspetition. Respondents’ principal concern is that if they were to file a cross-petition,
it would “set the petitions and any cross-petitions on separate tracks.” Texas Resp.
The federal respondents’ novel remedial arguments, see Federal Resp. 11-12, are
not a reason to delay review in this case. They would only become relevant if the
Court ruled against petitioners on each of the questions presented here. See Pet.
18-19 n.16.
2

6
7; see Individual Resp. 6. But that concern would only arise if respondents delayed
in filing a cross-petition. Cf. Texas Resp. 2 (noting that the “deadline for any crosspetitions is March 17, 2020 . . . and any change in the March 17 deadline would
prejudice respondents”).

Under the circumstances of this case, respondents are

surely capable of preparing and filing any cross-petition in time for it to be
considered by the Court, on an expedited basis, alongside the pending petitions. Cf.
Texas Resp. 5 (asserting that “[p]etitioners could have filed their petitions the next
day” after the Fifth Circuit issued its decision on December 18, 2019). To avoid any
concerns about prejudice or separate tracks, if the Court adopts the principal
briefing schedule proposed by petitioners, see Mot. 7, and if respondents file any
conditional cross-petition by the February 3 deadline for their briefs in opposition,
petitioners would respond to the cross-petition on the same day they intend to file
their reply brief (February 12). That schedule would give respondents 31 days from
the filing of the petition (and 47 days from the Fifth Circuit’s decision) to prepare
any cross-petition, while allowing the Court to consider the two pending petitions
and any cross-petitions at the February 21 conference.
*

*

*

7
For the reasons stated, petitioners respectfully request that the Court expedite
consideration of the motion, expedite consideration of the petition for a writ of
certiorari, and, if it grants the petition, set a schedule for merits briefing and
argument that would allow the Court to hear and decide the case this Term.
Respectfully submitted,
/s/ Samuel P. Siegel
Xavier Becerra
Attorney General of California
Michael J. Mongan
Solicitor General
Samuel P. Siegel
Helen H. Hong
Deputy Solicitors General
Kathleen Boergers
Supervising Deputy Attorney General
Nimrod Pitsker Elias
Neli N. Palma
Deputy Attorneys General
Amari L. Hammonds
Associate Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov
Counsel for the State of California
(Additional counsel listed on the following pages)

8

William Tong
Attorney General of Connecticut
Joseph Rubin
Assistant Deputy Attorney General
Counsel for the State of Connecticut

Philip J. Weiser
Attorney General of Colorado
Eric R. Olson
Solicitor General
Counsel for the State of Colorado
Kathleen Jennings
Attorney General of Delaware
Ilona Kirshon
Deputy State Solicitor
Jessica M. Willey
David J. Lyons
Deputy Attorneys General
Counsel for the State of Delaware

Maura Healey
Attorney General of Massachusetts
Stephen B. Vogel
Assistant Attorney General
Counsel for the Commonwealth of
Massachusetts
Dana Nessel
Attorney General of Michigan
Fadwa A. Hammoud
Solicitor General
Counsel for the State of Michigan
Keith Ellison
Attorney General of Minnesota
Scott Ikeda
Assistant Attorney General
Counsel for the State of Minnesota, by
and through its Department of
Commerce

Clare E. Connors
Attorney General of Hawaii
Robert T. Nakatsuji
First Deputy Solicitor General
Counsel for the State of Hawaii

Aaron D. Ford
Attorney General of Nevada
Heidi Parry Stern
Solicitor General
Counsel for the State of Nevada

Kwame Raoul
Attorney General of Illinois
Jane Elinor Notz
Solicitor General
David F. Buysse
Deputy Chief, Public Interest Division
Matthew V. Chimienti
Assistant Attorney General, Special
Litigation Bureau
Counsel for the State of Illinois

Gurbir S. Grewal
Attorney General of New Jersey
Matthew J. Berns
Assistant Attorney General
Marie Soueid
Deputy Attorney General
Counsel for the State of New Jersey

Thomas J. Miller
Attorney General of Iowa
Nathan Blake
Deputy Attorney General
Counsel for the State of Iowa

9
Letitia James
Attorney General of New York
Barbara D. Underwood
Solicitor General
Steven C. Wu
Deputy Solicitor General
Lisa Landau
Bureau Chief, Health Care Bureau
Elizabeth Chesler
Assistant Attorney General, Health
Care Bureau
Counsel for the State of New York
Joshua H. Stein
Attorney General of North Carolina
Matthew W. Sawchak
Solicitor General
Ryan Y. Park
Deputy Solicitor General
Sripriya Narasimhan
Deputy General Counsel
Counsel for the State of North
Carolina
Ellen F. Rosenblum
Attorney General of Oregon
Benjamin Gutman
Solicitor General
Counsel for the State of Oregon
Peter F. Neronha
Attorney General of Rhode Island
Michael W. Field
Maria R. Lenz
Assistant Attorneys General
Counsel for the State of Rhode Island
Thomas J. Donovan, Jr.
Attorney General of Vermont
Benjamin D. Battles
Solicitor General
Counsel for the State of Vermont

Mark R. Herring
Attorney General of Virginia
Toby J. Heytens
Solicitor General
Counsel for the Commonwealth of
Virginia
Robert W. Ferguson
Attorney General of Washington
Jeffrey G. Rupert
Chief, Complex Litigation Division
Jeffrey T. Sprung
Assistant Attorney General
Counsel for the State of Washington
La Tasha Buckner
General Counsel
S. Travis Mayo
Chief Deputy General Counsel
Taylor Payne
Deputy General Counsel
Counsel for Andy Beshear, Governor of
Kentucky
Karl A. Racine
Attorney General for the District of
Columbia
Loren L. Alikhan
Solicitor General
Carl J. Schifferle
Acting Deputy Solicitor General
Counsel for the District of Columbia

